                            Report on Fiscal Year 2004
                               Labor Floor Checks

                                    March 2005

                      Reference Number: 2005-1C-056




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                    DEPARTMENT OF THE TREASURY
                                        WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                           March 30, 2005


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                 Daniel R. Devlin
                             Assistant Inspector General for Audit (Headquarters Operations
                             and Exempt Organizations Programs)

       SUBJECT:              Report on Fiscal Year 2004 Labor Floor Checks
                             (Audit #20051C0213)


       The Defense Contract Audit Agency (DCAA) performed physical observations (floor
       checks) to determine whether employees are actually at work, employees are
       performing in their assigned job classifications, and employee time is charged to the
       appropriate jobs. According to the DCAA, the floor checks include determining whether
       the contractor consistently complies with established timekeeping system policies and
       procedures for recording labor charges.
       The DCAA stated the floor checks disclosed no significant deficiencies in the
       contractor’s timekeeping or labor system. The DCAA also stated this report pertains
       only to evaluating the contractor’s timekeeping procedures and the performance of floor
       checks. Therefore, the DCAA expresses no opinion on the adequacy of the contractor’s
       labor accounting system as a whole.
       The information in this report should not be used for purposes other than those intended
       without prior consultation with the Treasury Inspector General for Tax Administration
       regarding their applicability.
       If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
       Director at (202) 927-7077.


       Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
